Before the Committee on Commerce,
Science and Transportation
Subcommittee on Aviation
United States Senate


For Release on Delivery
Expected at
10:00 a.m. EDT
                          Outlook for Aviation
Thursday
May 26, 2005
                          Delays in the Summer of
CC-2005-043
                          2005 and Actions Needed
                          To Mitigate Congestion in
                          the Short- and Long-term




                           Statement of
                           The Honorable Kenneth M. Mead
                           Inspector General
                           U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee,

Thank you for inviting us to testify today. As we venture into the summer months
—historically the peak air travel time—congestion and delays are on the forefront
of concern. In many markets, traffic and delays are back at a rate as severe as
2000, when travel disruptions were at their peak. And in some markets they are
worse. Today I want to describe the scenario—what we’ve seen recently, and
where we’re likely to be this summer, what is driving the delays, and what FAA
must do to address congestion in both the short- and long-term.

Traffic Levels Are Growing as Are the Number, Rate, and Length of
Delays in Key Markets

Both enplanements and operations are back to or greater than 2000 levels, when
air travel was at its peak. Enplanements in 2004 were 698.7 million, just about
250,000 short of 2000 enplanements. Flight operations in April 2005 actually
exceeded April 2000 operations by 4 percent.

One of the factors stimulating traffic growth is the continued decline in average
airfares. In April 2000, the average one-way airfare on a 1,000-mile flight was
$147—this past April the fare was down 20 percent to $118. The one exception
to rebounding traffic levels is in the area of small communities. In cities with non-
hub airports like Missoula, Montana; Texarkana, Arkansas; Yuma, Arizona; and
Charleston, West Virginia, scheduled flights in July 2005 to large, medium, small,
and other non-hub airports are down 21 percent and seats are down 12 percent
from July 2000.1 Service levels remain depressed despite a doubling in recent
years in Essential Air Service funds, and a near 50 percent increase in the number
of subsidized cities.

As traffic has increased, so have delays. In the first quarter of 2005, arrival delays
were up 17 percent over the first quarter of 2004, and affected more than
25 percent of all flights. The average length of delay is also rising, with first
quarter 2005 delays averaging 52.3 minutes compared to 48.5 minutes in the same
period in 2000. During the first quarter of 2005, more than one-third of all arrivals
were delayed at five airports, including LaGuardia, Philadelphia, and Newark. We
note that the most delayed airports are not necessarily the busiest airports. In fact,
of the 15 highest-volume airports during the first quarter of 2005, only 5 are
among the top 15 most delayed airports.

Overall, we expect the traffic and delay growth to continue, especially in those
markets where we are already experiencing problems. Total operations are

1
    Includes all domestic and international flights.


                                                                                    1
continuing to increase, and summer storms are notorious for adding delays in
Southeast and Northeast markets like Atlanta and New York which are already
suffering from capacity-related delays.

Outlook for This Summer and Beyond: Six Airports to Watch

Airports to watch this summer include Philadelphia, LaGuardia, Newark,
Washington-Dulles, Atlanta, and Fort Lauderdale. All have some or all of the
following characteristics: significant delays last summer, in most cases exceeding
summer 2000 delays; substantial projected traffic growth this summer; or
consistently elevated delay rates sustained over the past year or longer. On a
cautionary note, we learned a hard lesson last December when weather problems
and traffic volume in a handful of cities bumped up against the pared-down
operations of one network carrier. Many network carriers have been trimming
operations to lower costs and improve their financial conditions. With traffic
expected to grow this summer, the airlines—as well as FAA and the airports—
need to ensure that staff and resources are commensurate with the level of
scheduled operations.

On a positive note, delays appear to be improving at Chicago-O’Hare, an airport
which has been plagued by congestion for more than 30 years, despite regulatory
intervention. We expect the improvement to continue through the summer
months. O’Hare ranked fourteenth in delays during the first quarter of 2005 in
contrast to its rank of first in the same period in 2004. The improvement appears to
be, at least in part, a result of the Department’s administrative actions in 2004 to
cap hourly operations at O’Hare at a level consistent with available capacity. The
controls on landing slots and schedules have temporarily brought some short-term
relief, but in the long run, controls do not accommodate demand and can stifle
competition.

Causes of Delay Growth Include Significant Low-Cost Carrier
Expansion, Down-Sizing of Network Carrier Hubs and Subsequent
Transfer of Service to Alternative Hubs, and Continued Growth in
Regional Jet Operations

•   Incursion of Low-cost Carriers into Legacy Hubs Spurs Traffic and
    Congestion Growth. Low-cost carriers are now challenging legacy carriers
    in their hubs in most large- and medium-sized markets, increasing traffic and
    contributing to delays. For example, the increasing presence of JetBlue and
    other low-cost carriers at New York–JFK are causing delays in an airport that
    has been operating at under-capacity since traffic dropped off in late 2000.
    During the first quarter of 2005, low-cost carrier traffic increased more than



                                                                                  2
      five-fold while other traffic2 was down by 34 percent from the first quarter of
      2000. During this same period, delays at JFK were 34.5 percent higher than
      during the same period in 2000 and represented an increase of more than
      52 percent over the first quarter of 2004. Likewise, following the start-up of
      new low-cost carrier Independence Air at Washington-Dulles, traffic levels
      there increased by 79 percent and delays more than doubled.

      New market entry by low-cost carriers can have dramatic effects on the
      average fares in those markets, often stimulating demand and driving
      additional service frequencies. For example, when Southwest began service
      between Philadelphia and Providence in 2004, the average one-way fare
      dropped from $328 to $54 and the number of passengers in the quarter
      following Southwest’s market entry (third quarter 2004) increased from fewer
      than 10,000 to more than 100,000.

•     Displaced Traffic from Down-sized Legacy Carrier Hubs Contributes to
      Congestion Growth in Other Hubs. In an effort to reduce costs and improve
      efficiency, several mainline carriers have closed hub operations at some
      airports and transferred operations into remaining hubs. For example, US
      Airways downsized its Pittsburgh hub operations by 3,800 flights in the fourth
      quarter of 2004 and shifted mainline aircraft and operations to its hubs in
      Philadelphia, Charlotte, and Fort Lauderdale. While delays in Pittsburgh were
      down minimally in the first quarter of 2005 from the first quarter of 2004,
      delays increased in each of the other three hubs by more than 60 percent.

•     Increased Regional Jet Operations and Rebounding Jet-powered
      General Aviation Traffic Are Increasing Demands on High-Altitude
      Airspace and Airport Runways. Network carriers continue to shift service to
      regional jet aircraft. In July 2000, scheduled flights aboard regional jets
      accounted for 10 percent of all flights. In July 2005, they will account for
      32 percent of all flights. Unlike their turbo-prop driven predecessors, regional
      jets occupy the same airspace and require access to the same runways as larger
      jet aircraft.

      While the rest of the industry has shown signs of recovery, general aviation
      (GA) operations as a whole have continued to decline and remain 12.4 percent
      below 2000 levels. However, within the GA market, one sector—jet aircraft
      activity—is improving. Flight hours logged by GA jets in 2004 were up
      6.2 percent over 2000 levels.



2
    Domestic and international operations by US flag carriers, international operations by foreign flag
    carriers, and charter service.


                                                                                                          3
Future Drivers of Congestion Will Include Continued Low-Cost
Carrier Growth, Increased International Operations, and Expanding
Jet-powered General Aviation Traffic

•   Continued growth of low-cost carrier networks in hubs formerly dominated by
    legacy carriers will increase demand on airport and air traffic control
    operations.

•   International traffic, which has lagged behind domestic rebounding traffic, is
    once again picking up. In the summer 2005, scheduled international passenger
    and cargo operations are projected to exceed summer 2000 levels by 16 percent
    and 12 percent, respectively.

•   One of the new challenges that we are likely to encounter within the next year
    is operations by a new class of aircraft called Very Light Jets (VLJs) or
    microjets, which are scheduled to enter the market as early as March 2006.
    Priced as low as $1 million per aircraft, microjets may be more attractive to the
    business travel market than the currently available comparable aircraft priced
    at about $6 million. Microjet manufacturers anticipate that these twin-engine,
    4-6 passenger jets, will find a niche among a variety of corporate and private
    owners as well as on-demand air taxi service. While supporters believe that
    microjets have the potential to redefine business travel, others are more
    conservative about how quickly, where, and to what extent the market will
    materialize.

FAA Has Made Progress in Managing and Enhancing Capacity but
Additional Actions Need To Be Taken To Meet the Demand for Air
Travel in the Short- and Long-Term

Since the Summer of 2000, FAA has taken a range of actions that have improved
the flow of air travel. These include putting administrative controls in place at
Chicago O’Hare, improved communications between airlines and FAA’s
Command Center, and procedural changes to help manage the affects of bad
weather. Moreover, a number of new runways have come on-line. Most recently
in January 2005, FAA reduced vertical separation for aircraft traveling at high
altitudes (between 29,000 and 41,000 feet) to enhance the flow of air travel.

Without question, congestion and delays would be much worse this summer
without these actions, particularly the administrative controls at Chicago O’Hare
and the commissioning of new runways. However, the anticipated demand for air
travel highlights the need for additional actions in both the short- and long-term.




                                                                                   4
• Keeping new runway projects on schedule, including projects at
  Minneapolis, Cincinnati, St. Louis, Atlanta, Boston, Philadelphia,
  Charlotte, and Seattle Airports, is important because FAA reports that new
  runways provide the largest increases in capacity. We note that of the
  15 most congested airports (in terms of percent of operations delayed in the
  first quarter of 2005), only 3 airports (Atlanta, Boston, and Philadelphia)
  are expected to complete new runway projects within the next 2 to 3 years.

• Getting FAA’s airspace redesign efforts on track is critical to enhance
  capacity. Earlier this month, we issued a report on FAA’s airspace redesign
  efforts and found that cost and schedules for projects are not reliable,
  projects are delayed 3 years or more, and airspace redesign efforts are not
  effectively coordinated among FAA organizations.                We made
  recommendations aimed at strengthening and speeding the transition from
  project planning to implementation by establishing cost and schedule
  controls for airspace projects, prioritizing efforts, and linking airspace
  projects to agency budgets.

• Addressing the pending wave of controller retirements will be a challenge.
  Over the next 10 years, FAA estimates that approximately 73 percent of the
  organization’s 15,000 controllers will become eligible to retire. This past
  December, FAA issued the first in a series of reports outlining how the
  problem will be addressed. While a good first step, the plan does not
  discuss cost nor hiring and staffing needs by location. This information is
  critical because FAA has over 300 air traffic control facilities, and many
  (like Chicago O’Hare) have the potential to impact the entire National
  Airspace System. Without accurate facility-level planning, FAA runs the
  risk of placing too many or too few controllers at key locations and could
  waste a one-time opportunity to address longstanding concerns about
  controller staffing imbalances. FAA must also be cognizant that a much
  higher percentage of its controller workforce will be trainees. FAA will
  need to continually monitor the training results from individual facilities to
  ensure that the significant increase in trainees does not adversely impact
  efficiency or safety.

• Setting expectations for FAA’s new Joint Planning and Development
  Office is critical. This office was mandated by Congress to develop a
  vision for the next generation air traffic management system in the 2025
  timeframe. There are a number of reasons why this effort is important,
  including the forecasted demand in air travel and the factors (i.e., microjets)
  that may drive increased operations. It is also important because much of
  FAA’s current capital account focuses on keeping things running (i.e.,
  infrastructure sustainment), not new initiatives. FAA reports that the

                                                                               5
      current air traffic control system (or “business as usual”) will not be
      sufficient to accommodate future growth in traffic or the changes facing the
      aviation community. Key issues focus on what new systems are needed
      and how new systems, capabilities, procedures, and changes in airspace
      management can transform the way air traffic services are provided. FAA
      needs to determine what the new office can do in 5- and 10-year intervals
      and establish corresponding funding requirements.

   • In the immediate term, there are two airports—Chicago-O’Hare and New
     York-LaGuardia—where traffic, if unchecked, is likely to overtax available
     capacity. Slot restrictions were in place in both airports through 2002, when
     O’Hare’s were lifted. At LaGuardia, slot controls were lifted in 2002 and
     then reinstated when delays became unmanageable. At O’Hare, the
     Administration has imposed administrative controls to cap the number of
     hourly flights at a level consistent with the airport’s capacity. The
     Department has a rulemaking underway that would extend these caps for
     3 years until planned runway projects can add capacity.

      At LaGuardia, however, new construction is not a viable option because of
      land constraints. At LaGuardia, and potentially other airports where delays
      may return to a crisis level faster than capacity can be added, market-based
      solutions may offer some temporary, or even permanent, relief. Market-
      based solutions such as congestion pricing or slot auctions may allocate
      scarce capacity without distorting the market, but they entail difficult policy
      decisions such as how to value capacity, what the appropriate price is for
      the respective users, who should determine the price, who collects the
      revenues, and how the revenues should be used.

Mr. Chairman, this concludes my formal statement. An attachment to this
statement includes charts, graphs, tables and other data that further illustrate the
issues I have highlighted today. I would be happy to answer any questions.




                                                                                   6
                                                                                ATTACHMENT

                    Traffic Growth In Key Markets Is Driving Delays and
                    Congestion While Smaller Communities Continue To
                    Experience Depressed Service Levels
                    Both enplanements and operations are back to or at even greater levels than 2000,
                    when air travel was at its peak. Enplanements in 2004 were 698.7 million, just
                    about 250,000 short of 2000 enplanements. Flight operations in April 2005
                    actually exceeded April 2000 operations by 4 percent.

                                                                                                                                                    Actual Flight Operations
                 Passenger Enplanements, 2000-2004                                                                          Percent Change in Air Route Traffic Control Center Operations
                                                                                                                                               from 2000 (FAA Data)
                   698.9                                                       698.7                                      10%                                                     April '05 4%

           700
                                                                                                                           5%
                            652.9                             647.4




                                                                                                             Percentage
                                              640.9                                                                        0%
           650
millions




                                                                                                                          -5%
           600
                                                                                                                          -10%

                                                                                                                          -15%
           550
                                                                                                                                                                               Sep '01 -16%
                                                                                                                          -20%

                                                                                                                                 Jan-01



                                                                                                                                                   Jul-01
                                                                                                                                                            Oct-01
                                                                                                                                                                      Jan-02



                                                                                                                                                                                        Jul-02

                                                                                                                                                                                                    Oct-02
                                                                                                                                                                                                             Jan-03



                                                                                                                                                                                                                               Jul-03

                                                                                                                                                                                                                                        Oct-03
                                                                                                                                                                                                                                                 Jan-04



                                                                                                                                                                                                                                                                   Jul-04

                                                                                                                                                                                                                                                                            Oct-04
                                                                                                                                                                                                                                                                                     Jan-05
                                                                                                                                          Apr-01




                                                                                                                                                                               Apr-02




                                                                                                                                                                                                                      Apr-03




                                                                                                                                                                                                                                                          Apr-04




                                                                                                                                                                                                                                                                                              Apr-05
           500
                  2000     2001          2002             2003               2004




                    Traffic growth has led to a resurgence in congestion and delays. Systemwide
                    arrival delays in the first quarter of 2005 were up 17 percent over the first quarter
                    of 2004, affecting more than 25 percent of all flights. The number and percentage
                    of delays in the first quarter of 2005 were also greater than the number of delays in
                    the first quarter of 2000, generally considered to be the hallmark of poor on-time
                    performance. The average length of delay is also rising, with first quarter 2005
                    delays averaging 52.3 minutes compared to 48.5 minutes in the same period in
                    2000.
                                                          Percent Flights Delayed (Arrival) and Average
                                                            Length of Delay, First Quarter, 2000-2005
                                              55                                                                                                                                        30%

                                                                                                                                                            52.3


                                              50                                                                                                                     25.4%              25%
                                                      23.6%                  24.4%                                           48.9
                                                                                                                                                                                                 percent
                                    minutes




                                                       48.5           48.3
                                                                                                      46.5                            22.2%
                                              45                                              19.7%                                                                                     20%
                                                                                       43.9                  19.3%



                                              40                                                                                                                                        15%
                                                       2000           2001              2002          2003                   2004                           2005
                                                                         Average Delay                  Percent Delayed




                                                                                                                                                                                                                                                          7
The increased rate of flight delays for the first quarter of 2005 was concentrated in
airports in the Northeast and Florida. We note that the most delayed airports are
not necessarily the busiest airports. In fact, of the 15 highest-volume airports
during the first quarter of 2005, only 5 are among the top 15 most delayed airports.
The following table identifies the Top 15 highest-volume airports as ranked by
scheduled arrivals and their delay profiles.

         Delay Profiles at 15 Highest-Volume Airports:
                      First Quarter of 2005
      Volume            Airport          Scheduled   Percent    Top 15
       Rank                               Arrivals   Delayed   Delayed?/
                                                                 Rank
         1     Atlanta (ATL)               117,862     28%      Yes (11)

         2     Chicago-O’Hare (ORD)        114,870     27%      Yes (14)

         3     Dallas-Fort Worth (DFW)      85,505     18%         No

         4     Los Angeles (LAX)            74,211     25%         No

         5     Denver (DIA)                 65,821     20%         No

         6     Houston Int’l (IAH)          64,057     20%         No

         7     Cincinnati (CVG)             62,475     21%         No

         8     Minneapolis (MSP)            61,864     22%         No

         9     Washington-Dulles (IAD)      61,270     25%         No

        10     Detroit (DET)                61,265     24%         No

        11     Phoenix (PHX)                60,309     25%         No

        12     Philadelphia (PHL)           60,291     33%       Yes (4)

        13     Charlotte (CLT)              57,929     23%         No

        14     Las Vegas (LAS)              50,518     27%      Yes (15)

        15     Newark (EWR)                 49,399     33%       Yes (5)


Most of the Top 15 Delayed Airports Experienced Traffic Growth,
Increased Delay Rates, and Longer Average Delays.

•   Twelve of Fifteen Airports Experienced Traffic Growth. Among the
    top 15 delayed airports, as ranked by percent of flights delayed, 12 airports
    experienced traffic growth of between 1 and 18 percent over first quarter 2004
    levels, with the largest growth at Indianapolis (+18 percent), Philadelphia
    (+16 percent), and Fort Lauderdale (+15 percent). Scheduled arrivals were flat
    at LaGuardia and scheduled arrivals at Newark and O’Hare actually declined


                                                                                   8
                          by 2 percent and 3 percent, respectively. Both O’Hare and LaGuardia are
                          operating under administratively-imposed traffic caps.

                •         Fourteen of Fifteen Airports Experienced Growth in Delay Rates.
                          The percent of flights delayed increased over first quarter 2004 levels in all of
                          the top 15 delayed airports except O’Hare, most notably at Fort Lauderdale
                          (+11.3 percentage points), LaGuardia (+11.2 percentage points), and
                          Philadelphia (+9.6 percentage points). The percentage of flights delayed at
                          O’Hare actually decreased by nearly 10 percentage points from this period.

                •         Fourteen of Fifteen Airports Experienced Increased Average
                          Lengths of Delay. In the first quarter of 2005, the average length of delay
                          increased over the first quarter of 2004 at 14 of the 15 airports, with the
                          greatest increases at Fort Lauderdale (47 to 57 minutes), Philadelphia (50 to
                          60 minutes), and Atlanta (52 to 61 minutes). The average length of delay at
                          O’Hare was 62 minutes, which was more than a 2 minute decrease from the
                          average 65 minute delay experienced during the first quarter of 2004.

                The following table identifies the 15 most delayed airports and their net growth in
                traffic, percent of flights delayed, and change in average length of delays.
                Chicago-O’Hare is highlighted because it is the only airport on the list that
                improved in the first quarter 2005 over the first quarter of 2004.

Top 15 Delayed Airports – First Quarter 2005 vs. First Quarter 2004, by Percent
Delayed (Columns may not total due to rounding)


                                                                                                                             Percentage
1Q05 Rank




                                                                    1Q04 Rank
                                                          Average




                                                                                                        Average
                                                % Delay




                                                                                              % Delay
                                                          Minutes




                                                                                                        Minutes




                                                                                                                                          Minutes
                                    Arrivals




                                                                                  Arrivals




                                                                                                                  Arrivals
                                                                                                                  Change




                                                                                                                             Change
                                                                                                                                          Change
                    Airport




                                                                                                                             Point
            West Palm
  1                               13,354       40.0%       51         2         13,171       35.3%       47        1%          4.7%         4
            Beach
2           Fort Lauderdale       32,502       37.8%       57       3           28,287       26.5%       47       15%         11.3%        10
3           NY-LaGuardia          47,642       35.5%       59       8           47,738       24.3%       51        0%         11.2%        8
4           Philadelphia          60,291       33.3%       60       10          52,135       23.7%       50       16%         9.6%         10
5           Newark                49,399       33.3%       61       4           50,611       26.4%       53       -2%         6.9%         7
6           NY-JFK                37,783       30.4%       56       12          33,078       22.8%       51       14%         7.6%         5
7           Louisville            17,776       29.3%       43       7           17,369       25.4%       42        2%         3.9%         1
8           Burbank               9,658        28.7%       45       13          9,182        21.5%       43        5%         7.2%         1
9           Dayton                9,977        28.1%       52       6           9,780        25.6%       49        2%         2.5%         3
10          Boston                42,996       27.8%       52       15          41,977       19.9%       47        2%         7.9%         5
11          Atlanta               117,862      27.7%       61         5         116,842      25.9%       52        1%          1.8%         9
12          Tampa                 29,283       27.5%       51       14          25,745       20.2%       44       14%          7.3%         7
13          Indianapolis          24,420       27.3%       49       9           20,741       24.2%       46       18%          3.1%         3
14          Chicago-O’Hare        114,870      27.2%       62       1           118,276      36.9%       65       -3%         -9.7%        (2)
15          Las Vegas             50,518       26.9%       53       11          47,144       23.3%       50        7%          3.6%         3




                                                                                                                                            9
Of the top 15 delayed airports, the only airport to improve over the first quarter of
2004 was O’Hare. For the first quarter 2005, O’Hare ranked fourteenth in percent
of delayed arrivals (27 percent), a sea-change from its ranking of first in the same
period in 2004, when 37 percent of flights arrived late. This improvement, at least
in part, can be attributed to the Administration’s interventions with the carriers
serving O’Hare. In 2004, the Department intervened on three separate occasions
to negotiate and/or impose schedule reductions to cap operations at a level
consistent with O’Hare’s available capacity. The first intervention in March 2004
resulted in a 5 percent reduction in schedules by United and American. The
second intervention in June 2004 reduced schedules another 2.5 percent. The third
and final intervention in November 2004 capped scheduled peak-hour departures
at 88 combined among all carriers. Congestion in the Chicago area was also
mitigated after bankrupt ATA Airlines reduced operations out of Chicago-Midway
airport by 19 percent.

Growth in Low-Cost Carriers, Hub Consolidation, and Regional
Jet Growth Drive Congestion

Incursion of Low-Cost Carriers into Legacy Hubs Spurs Traffic and
Congestion Growth. Low cost carriers (LCCs), which once opted to operate at
alternative but more affordable secondary airports, are now challenging legacy
carriers in their hubs in
most large and medium-                      Airline Domestic Market Share
                                      Airline Market Share by Available Seats (FAA Data)
sized markets. Based on
                                75%
July     2005      scheduled
flights, low-cost carriers      60%
                                    62%        61%
                                                         58%
will account for 26 percent                                         54%
                                                                               51%       48%
                                   Percentage




of all departures, compared     45%

to 18 percent in 2000. The
share of service provided       30%
                                      20%         20% 20% 21%
                                                               22%    23% 23%    25% 25%
                                                                                           26% 26%
                                           18%
by network carriers and         15%
their regional affiliates has
likewise declined from           0%
82 percent in July 2000 to            7/00        7/01     7/02       7/03       7/04       7/05

74 percent in July 2005.                      Network     Regionals and others     Low-Cost


The entry of new low-cost
carrier service can have dramatic effects on the average fares on those markets as
all carriers are pressured to reduce fares to levels competitive with the new low-
cost service.




                                                                                               10
                   Significant fare reductions often                                                                                Change in Avg 1-Way Fares,
                   stimulate demand, driving additional                                                                              Pre- and Post-LCC Entry
                   service offerings. For example, when                                                          $350
                                                                                                                           $328
                                                                                                                                                                            $307
                   Southwest began service between                                                               $300                                                                 $271
                                                                                                                                                                                                $234
                   Philadelphia (PHL) and Raleigh-                                                               $250               $213
                                                                                                                                              $224               $217

                   Durham (RDU), the average one-way                                                                                                    $179




                                                                                             Dollars ($)
                                                                                                                 $200
                                                                                                                                                                               $161      $159      $142
                   fare dropped from $213 to $61,                                                                $150
                                                                                                                                                                     $106
                                                                                                                                                           $82
                   spurring passenger growth of                                                                  $100
                                                                                                                              $54       $61
                                                                                                                                                  $75


                   263 percent in the third quarter of                                                            $50

                                                                                                                 $-
                   2004 over the third quarter of 2003.                                                                    PHL-     PHL-      BOS-      CAK-     RDU-       BOS-      BOS-    WAS-
                                                                                                                           PVD      RDU        PHF      BOS      WAS        OAK       LGB     PWM


                   Similar effects occurred when
                                                                                                                              Change in Number of Passengers,
                   Southwest initiated service from                                                                               Pre- and Post-LCC Entry
                   Philadelphia to Providence (PVD),                                                                                    134,720
                                                                                                                 140,000
                   AirTran began service to Newport
                                                                                                                 120,000
                   News (PHF) and Akron (CAK) from                                                               100,000
                                                                                                                              100,550

                   Boston (BOS), Independence Air
                                                                                                   Passengers
                                                                                                                  80,000
                                                                                                                                                                               57,710
                   began service to Raleigh Durham and                                                            60,000                                              43,100             48,920
                   Portland, Maine (PWM) from                                                                     40,000
                                                                                                                                    37,120
                                                                                                                                                  24,430
                                                                                                                                                           33,620
                                                                                                                                                                                                  22,160
                                                                                                                                                                 26,470
                   Washington (WAS – Dulles), and                                                                 20,000 9,190
                                                                                                                                                        5,680
                                                                                                                                                                            11,040              6,580
                                                                                                                                              1,190                                   1,530
                   JetBlue began service to Oakland                                                                   -
                                                                                                                             PHL-     PHL-     BOS-      CAK-       RDU-     BOS-     BOS-      WAS-
                   (OAK) and Long Beach (LGB) from                                                                           PVD      RDU       PHF      BOS        WAS      OAK      LGB       PWM
                   Boston.

                   Systemwide, the effects of low-cost carriers are taking their toll on average
                   airfares. In April 2005, the average fare for a 1000-mile trip3 was $118, a drop of
                                                                                    20     percent       from      the
                                Average Domestic Air Fares                          $147 average      fare    for    a
                         Average Fare for 1,000 Mile Trip: 2000, 2004, and YTD 2005
                   $180
                                                                                    1,000-mile trip in April 2000.
                           April '00 $147    April '05 $118
                   $160
                   $140
                                                                  The new low-cost carrier
($) Average Fare




                   $120
                   $100                                           operations,     coupled     with
                    $80                 `                         competitive responses from
                    $60
                    $40
                                                                  existing service providers can
                    $20                                           significantly tax runways and
                     $0
                                                                  airspace at airports that may be
                                                                                       Nov
                           Jan




                                                         Jun

                                                               Jul
                                       Mar

                                             Apr
                                 Feb




                                                                     Aug

                                                                           Sep

                                                                                 Oct
                                                   May




                                                                                                           Dec




                                                                  already congested. Examples of
                                 2000    2004  2005
                                                                  the impact of low-cost carrier
                   entry on congestion include Independence Air’s operation out of Washington-
                   Dulles and JetBlue’s growing operation at New York-JFK.


                   3
                       For eight major US Airlines, as reported to the Air Transport Association.


                                                                                                                                                                                       11
In 2004, Independence Air (formerly Atlantic Coast Airlines) launched a new low-
cost service with its hub operation at Dulles Airport. United, the incumbent
legacy carrier, matched Independence Air on fares, further stimulating growth in
the markets served by both carriers. As a result, flights increased 79 percent in
March 2005 over March 2004 levels. In the same period, the number of delayed
flights increased by 7,700 or more than 100 percent.

Growth at New York-JFK is almost entirely attributable to growth in low-cost
carrier service, led predominantly by JetBlue. In the first quarter of 2005, total
JFK traffic was down 11 percent from the highs of the first quarter of 2000,
largely as a result in lagging International traffic. However during this period,
low-cost carrier traffic increased more than five-fold while other traffic4 was still
down by 34 percent. Delays as well have increased as traffic has grown. In the
first quarter of 2005, the number of delayed arrivals was 35 percent higher than
the same period in 2000 and represented a more than 52 percent increase over the
first quarter of 2004.

                                             New York-JFK Growth in Low-Cost
                                                      Carrier Service
                                          45,000    1,684
                                                             3,505                              10,731
                   Scheduled Departures




                                          36,000                               6,885    9,014
                                                                      5,055
                                          27,000
                                                   40,397
                                          18,000            31,142
                                                                                          26,649
                                                                     22,980 24,830 22,869
                                           9,000

                                              0
                                                   1Q00     1Q01     1Q02     1Q03     1Q04     1Q05
                                                    All Other Carriers         Low -Cost Carriers



Displaced Traffic from Down-sized Legacy Carrier Hubs Contribute to
Congestion Growth in Other Hubs. In an effort to reduce costs and improve
efficiency, several mainline carriers have closed hubs and transferred operations to
remaining hubs. For example, Delta Airlines eliminated 7,500 flights from its hub
operations in Dallas/Fort Worth Airport (DFW) during the first quarter of 2005
and shifted its DFW-based mainline and regional affiliate aircraft to Atlanta,
Cincinnati, and Salt Lake City. Other carriers backfilled some of the vacated slots,
but the net impact was a 17 percent decrease in total scheduled operations at
DFW.

4
    Domestic and international operations by U.S. flag carriers, international operations by foreign flag
    carriers, and charter service.


                                                                                                            12
On the flip side, however, operations in Atlanta, Cincinnati, and Salt Lake City in
March 2005 were 7 percent, 5 percent, and 22 percent greater than operations in
March 2004, respectively. Delays in the first quarter at these airports showed
effects of these shifts, with delays down 14.4 percent at DFW from the first
quarter of 2004 and up in Atlanta, Cincinnati, and Salt Lake City 7.9 percent,
13 percent, and 3.4 percent, respectively.

In a similar pattern, US Airways cut its Pittsburgh hub operations by 3,800 flights
during the fourth quarter of 2004, shifting mainline aircraft and service to
Philadelphia, Charlotte, and Fort Lauderdale. Overall traffic in Philadelphia
increased by 29 percent, and was up 20 percent in Charlotte and 23 percent in Fort
Lauderdale. Compared to the 402 daily Philadelphia departures scheduled on a
typical day last summer, US Airways is now scheduling 495 daily flights, an
increase of 23 percent. While delays in Pittsburgh were down minimally in the
first quarter of 2005 over the first quarter of 2004, they were up 62.4 percent in
Philadelphia, 65.2 percent in Charlotte, and 63.7 percent in Fort Lauderdale.

Increased Regional Jet Operations and Rebounding Jet-powered
General Aviation Traffic Are Increasing Demands on High-Altitude
Airspace and Airport Runways. The shift from turboprop or piston aircraft
to jet aircraft (regional jets, jet-powered general aviation aircraft, and microjets)
are posing new challenges to airports and air traffic control. The shift essentially
pushes the former low-altitude turboprop traffic up to the 35,000 to 40,000+ foot
airspace—the same altitudes where larger jet aircraft fly—and thus crowding the
high-altitude airspace. In addition, regional jets and jet-powered general aviation
aircraft have the same airfield requirements, utilizing the same runways as larger
jets. In some congested airports, such as Newark, the runways that once
accommodated propeller-driven regional aircraft are underutilized, while delays
mount as jet-powered general aviation, regional jets, and large aircraft vie for
landing slots on the longer runways.

•   Regional Jets Now Represent Nearly One-third of All Scheduled
    Flights. The airlines are continuing to shift service to jet aircraft. In
    July 2000, scheduled flights aboard jets accounted for 66 percent of all flights
    offered. In July 2005, scheduled flights aboard jets will account for 81 percent
    of all offered flights. In contrast, scheduled turboprop flights decreased from
    28 percent in July 2000 to 14 percent in July 2005. The growth in jet traffic
    reflects, in large part, significantly increased reliance on regional jets. In
    July 2000, scheduled flights aboard regional jets accounted for 10 percent of
    all offered flights. In July 2005, scheduled flights aboard regional jets will
    account for 32 percent of flights.



                                                                                  13
                             Type of Aircraft: Domestic Scheduled Flights by
                                 Type of Aircraft July 2000 vs. July 2005

                              900,000

                              750,000                                        Regional Jets
                   Flights    600,000                                        Large Jets

                              450,000                                        Piston

                                                                             Turboprop
                              300,000

                              150,000

                                   0
                                         July 2000             July 2005



•      General Aviation Jet-powered Aircraft Activity Is on the Rebound.
       While the rest of the industry has shown signs of recovery, general aviation
       (GA) has not improved since a steep drop-off after September 11th. In fact, GA
       operations at combined FAA and contracted towers declined 1.6 percent in
       2004 and remain 12.4 percent below 2000 levels. However, within the GA
       market, one sector—jet aircraft activity—is showing signs of improvement.
       The number of GA jets filing instrument flight rule flight plans (generally not
       filed by locally operating recreational pilots) and the number of flight hours
       were up 1.6 percent and 6.2 percent, respectively, during 2004.

       And it appears the trend will continue. The General Aviation Manufacturers
       Association (GAMA) reports that shipments of business jet units were up
       26 percent in the first quarter of 2005 compared to the first quarter of 2004.
       FAA forecasts the number of general aviation hours flown by jet aircraft to
       expand at an average annual rate of 6.7 percent over the next 12 years. The
       large increase in jet hours is largely due to expected increases in the fractional
       ownership fleet and its activity levels. The growth of this traffic sector is a
       concern to the FAA because GA jets fly at the same altitudes, occupy the same
       airspace, and could potentially require use of the same runways as large
       commercial jets.

•      Microjets Have Potential To Further Crowd Dense Airspace. Beginning
       as early as March 2006, microjets or VLJs (Very Light Jets) are scheduled to
       enter the market priced between $1 million and $3 million per aircraft.5
       Manufacturers anticipate that these twin-engine jets carrying four to six
       passengers will be attractive to a variety of owners and operators. For
       example, Florida-based DayJet has ordered 239 Eclipse 500 microjets and
5
    Compared to comparable aircraft currently priced at around $6 million.


                                                                                             14
   plans to use them to operate
   what it calls “Per-Seat, On-
   Demand” jet services.         The
   company plans to provide point-
   to-point service to and from
   small     community      airports,
   including markets that have
   limited, if any, scheduled airline
   services.     The Eclipse 500™
   and several other VLJ models
   are undergoing testing this
   spring, and manufacturers have
   announced        that   customer
   deliveries will begin in 2006,
                                        Eclipse 500™ Very Light Jet (VLJ) during testing; Photo
   pending FAA certification.           Courtesy of Eclipse Aviation

   Beyond the air taxi business model, manufacturers of VLJs also see a market in
   private ownership, corporate business jet fleets, and logistics (on-demand air
   cargo—when “overnight” is not fast enough). While supporters believe that the
   microjets have the potential to redefine business travel, others are more
   conservative about how quickly and to what extent the market will materialize.
   FAA’s forecast assumes that the VLJs begin to enter the fleet in 2006 (100
   aircraft) and grow by between 400 to 500 aircraft a year thereafter, reaching a
   total of 4,500 aircraft by 2016. However, some industry estimates suggest that
   the market could reach 5,000 aircraft by as early as 2010, although it is not
   clear to what extent this represents domestically deployed aircraft.

Short-term Outlook Is for Trouble Spots This Summer

The summer travel season is historically the busiest travel time for the airlines.
Schedules increase to accommodate increased demand and traffic volume
increases, elevating the potential for an increased number of delays. Extreme
weather conditions often add an additional layer of difficulty in meeting on-time
performance goals. The following table identifies the 13 airports with summer
2004 arrival delays of greater than 25 percent. The airports with an asterisk,
(Washington-Dulles, New York-JFK, and Fort Lauderdale) are those airports
whose absolute delays in the summer of 2004 exceed the number during the
summer of 2000 (considered the peak in aviation delays), and are projecting
scheduled operations growth of greater than 10 percent for the summer of 2005.

In addition to Washington-Dulles, New York-JFK, and Fort Lauderdale, three
other airports are likely to experience significant disruptions this summer. Delays
in Philadelphia last summer affected more than 29 percent of all flights and

                                                                                       15
        scheduled departures this summer are 18 percent higher than the summer of 2004.
        Newark and Atlanta bear watching as both have sustained consistently high delays
        since the summer of 2000 and are likely to experience similar delay levels this
        summer.

        Thirteen Airports with Summer 2004 Arrival Delays Greater Than 25 Percent
                             June-August 2004     June--August 2000       Summer 05 vs Summer 04
                     Rank   % Delayed Delayed     % Delayed Delayed      Increase in % Increase in
                     2004     Gate       Gate       Gate      Gate       Scheduled     Scheduled
                             Arrivals  Arrivals    Arrivals  Arrivals    Departures   Departures
      Airport

Newark                1         29.60    16,116       31.96    16,130             45             0.1%
Washington-Dulles*     2        29.46    16,623       31.59    15,537          5,920            12.6%
Philadelphia           3        29.42    16,577       36.76    18,842          8,540            17.6%
NY-Kennedy*            4        29.16    11,670       33.32    11,283          2,889            11.5%
Miami                  5        28.23    10,339       32.72    12,522            627             3.2%
Atlanta                6        28.10    34,108       27.74    30,180          7,496             6.6%
Fort Lauderdale*       7        26.49     6,820       30.31     6,626          4,622            23.0%
Chicago-O'Hare        8         26.42    33,103       40.49    44,029         -2,568            -2.3%
Boston                 9        26.22    13,237       39.39    21,797            372             0.8%
Chicago Midway        10        26.12     9,301       29.51     8,055         -6,139           -19.4%
Las Vegas             11        25.90    12,913       28.81    12,808          4,140             9.3%
Orlando               12        25.76     9,662       29.46    11,564          3,185             9.1%
NY-LaGuardia          13        25.36    12,522       37.72    16,399            453             0.9%



        Long-Term Outlook Calls For Continued Growth
        International Traffic Is on the Rebound. International traffic is forecast to
        exceed pre-September 11th levels this year, with approximately 145 million
        passengers traveling to and from the United States; an increase of 11 million
        passengers since 2004. In the summer 2005, scheduled international passenger
        and cargo operations are projected to exceed summer 2000 levels by 16 percent
        and 12 percent, respectively.      According to the FAA, the move toward
        deregulation overseas, privatization of national carriers, and expansion of open-
        skies agreements could result in significantly greater international traffic growth.
        This month the United States signed a bilateral open-skies agreement with the
        Maldives which follows agreements recently signed by India, Sri Lanka,
        Paraguay, and Pakistan.
        General Aviation Will Continue To Grow. The Department will need to closely
        monitor the growth and utilization of VLJs, which will expand jet traffic in
        airspace above 38,000 feet and increase the demand for air traffic services for jet
        aircraft. Depending on how and where VLJ traffic materializes—much of which
        is unknown at this point—the impact on safety, staffing needs, airspace, and


                                                                                         16
infrastructure could be significant. In addition, VLJs could raise complex policy
issues in areas such as landing rights, airport congestion, and security.

Despite Growth in Traffic and Congestion at Large and Medium-Sized
Hubs, Small and Non-hub Airports Still Lag Their Larger Counterparts
in Service Recovery Since 2000

Service this summer connecting the smallest airports—otherwise known as non-
hub airports—to large, medium, and small hub airports will remain significantly
below service scheduled during the summer of 2000. Non-hub airports include
those in cities like Key West, Florida; Missoula, Montana; Roanoke, Virginia;
Lincoln, Nebraska; Charleston, West Virginia; and Redmond, Oregon. Access to
large hub airports (like Phoenix, Honolulu, and Newark) from non-hub airports is
down 16 percent from July 2000 levels. Scheduled flights to medium-sized hub
airports (like San Antonio, San Jose, and Manchester) are down 26 percent from
July 2000 levels. Scheduled flights to small-hub airports (like Spokane,
Washington; El Paso, Texas; and Portland, Maine) are down 32 percent. Finally,
flights between non-hub airports (e.g. Helena-Great Falls, Montana; Juneau-
Ketchikan, Alaska; and Ithaca-Elmira (New York) are down 24 percent.

Service levels remain depressed despite funding increases in the Essential Air
Service (EAS) program. Annual funding between FY 2002 and FY 2005 has
averaged about $100 million, or twice the level of subsidy available in 2000 and
2001. The number of cities with EAS subsidies has increased also, growing from
106 in 2000 to 151 in 2005.

                          Change in Flights and Seats: Non-hub Airport
                         Access to Large-, Medium-, Small- and Other Non-
                              hub Airports (July 2005 v. July 2000)
                       0%

                      -5%
                                 -5%
     Percent Change




                      -10%    Large        Medium              Small   Non-hub
                      -15%

                      -20%   -16%

                      -25%
                                                                       -24% -24%
                      -30%                 -26%
                      -35%                     -31%       -32%
                                                             -35%
                      -40%      (+/-)Flights      (+/-)Seats




                                                                                   17
The Department Faces Short- and Long-term Challenges
in Addressing Congestion and Delays
Since the Summer of 2000, FAA has taken a number of actions in managing and
enhancing capacity. These include putting administrative controls in place at
Chicago O’Hare, improved communications between airlines and FAA’s
Command Center, and procedural changes to help manage the impact of bad
weather (including greater use of joint civilian/military airspace on the East
Coast). FAA has also established a new office to develop a vision for the next
generation air traffic management system. Most recently in January 2005, FAA
reduced vertical separation for aircraft traveling at high altitudes which provided
for six new flight levels between 29,000 and 41,000 feet. In addition, a number of
new runways have come on-line.

Without question, congestion and delays would be much worse without these
actions, particularly the administrative controls at Chicago O’Hare and the
commissioning of new runways. However, the anticipated demand for air travel
and the factors we discussed earlier highlight the need for additional actions. We
see several areas that require attention in the short- and long- term:

   • Keeping new runway projects on schedule,
   • Getting FAA’s airspace redesign efforts on track, which is critical to
     enhance capacity,
   • Determining what FAA’s new Joint Planning and Development Office can
     do in 5- and 10-year intervals and establishing corresponding funding
     requirements, and
   • Continuing to explore market-based and administrative solutions where
     alternatives for providing new capacity are limited in the immediate term,
     for Chicago O’Hare and LaGuardia airports.

Keeping New Runway Projects on Schedule

FAA reports show that new runways provide the most significant increases in
capacity but these increases vary by location. New runways have been built at the
Phoenix, Detroit, Miami, Denver, Houston, Orlando, and Cleveland airports.
Without a doubt, congestion would be much worse this summer without the new
capacity in the system.




                                                                                18
Between 2005 and 2008, eight additional new runway projects (7 new runways
and a major extension of an existing runway) are expected to be completed. FAA
will need to make sure, among other things, that new procedures and navigation
equipment are in place when new projects are commissioned. We note that of the
15 most congested airports (in terms of percent of operations delayed in the first
quarter of 2005) only 3 airports (Atlanta, Boston, and Philadelphia) are expected
to complete new runway projects within the next 2 to 3 years. The following table
provides information on the eight runway projects FAA is monitoring as part of its
Operational Evolution Plan (OEP), the agency’s blueprint for enhancing capacity.

           Status of Major New Runway Projects – May 2005
                    Initial OEP                                               Cost
                                         Current                                        Current
                    (June 2001)                                             Estimate
                                        Estimated                                        Cost
    Airport          Estimated                                Phase         as of Oct
                                        Completion                                     Estimate
                    Completion                                                2001
                                          Date                                         (Millions)
                        Date                                                (Millions)
  Minneapolis        Dec 2003              Oct 2005         Construction           $563            $682
  Cincinnati          Dec 2005            Dec 2005          Construction           $233            $255
  St. Louis          May 2006             Apr 2006          Construction          $1,100          $1,043
  Atlanta            May 2005             May 2006          Construction          $1,200          $1,200
  Boston             Dec 2005             Nov 2006          Construction             $95           $118
  Philadelphia Not in initial OEP         Dec 2007            Design                  n/a            $40
  Charlotte          June 2004            Feb 2008            Design               $187            $201
  Seattle             Nov 2006            Nov 2008          Construction           $773           $1,129
Note: The Philadelphia project is a runway extension
Source: FAA and Airport Sponsors

There are about 10 other new runway projects in various planning stages,
including major efforts at Chicago O’Hare, Los Angeles, and Washington-Dulles.
However, FAA does not yet have firm completion dates for them and therefore has
not yet included them in the OEP.6 We will issue a report shortly on plans to
revamp Chicago O’Hare, which represents the largest and most costly
reconfiguration of an existing airport in the United States.

While adding new capacity (via new pavement) may ultimately be the most
comprehensive solution, it is not always a feasible one. For example, at congested
New York-LaGuardia, where slot controls are slated to expire in 2007, land
constraints preclude new construction. This is why FAA and some airports are
looking into market-based or administrative solutions to manage congestion and


6
    FAA includes a new runway in the OEP when all the planning and environmental processing has been
    completed, a Record of Decision has been issued, and the sponsor has provided FAA with the
    dimensions, timing, and planned use of the runway. FAA just recently added Philadelphia to the plan.


                                                                                                           19
delays. However, a number of policy questions need to be resolved with such
approaches.

Getting FAA’s Airspace Redesign Efforts on Track Is Critical to
Enhance Capacity

Airspace redesign efforts are critical in getting the most benefits (in terms of
capacity and delay reduction) from new runways. FAA’s OEP indicates that 40 to
60 percent of projected capacity improvements from new concrete will be lost
without corresponding changes in airspace. In some cases, airspace redesign plays
an even greater role.

For example, very few of the benefits of the Chicago O’Hare Modernization
Program (the addition of one new runway, the extension of two runways, and the
relocation of three others) will be realized without significant airspace changes.
For the first stage of the O’Hare Modernization Program expected to be complete
in 2007 (the new north runway only), a combination of airfield and airspace
changes provides for more than a 50 percent reduction in the average minutes of
projected delay per flight, from 19.6 to 9.6 minutes. FAA and Mitre analyses
show the new north runway, without corresponding airspace changes, will have
little impact on delays.

On the other hand, the Choke Point initiative (following the summer of 2000)
demonstrated that airspace changes can also have important benefits even without
new runway construction. FAA reports that the Choke Point initiative reduced
delays and resulted in an annual savings to airspace users of $70 million. The
Choke Point initiative was successful because it was placed on a fast track, had
significant management oversight, and linked plans and resources—all of which
are best practices that need to be transferred to all airspace projects.

We recently issued a report on the importance of FAA’s airspace redesign projects
in enhancing capacity and the range of actions the agency needs to take to get
these efforts on track.7 We reviewed the 42 approved airspace redesign projects in
FY 2004 and found that FAA’s overall process for controlling costs, mitigating
risks, and coordinating local, regional, and Headquarters efforts is diffused and
fragmented. Specifically, we found:
       • Cost and schedule estimates for the vast majority of airspace redesign
         projects are not reliable. Cost estimates—for the program as well as
         individual projects—include costs for planning but not for implementation.


7
    OIG Report Number AV-2005-059, “Airspace Redesign Efforts Are Critical To Enhance Capacity But
     Need Major Improvements,” May 13, 2005.


                                                                                                     20
      Therefore, we could not, nor could FAA, determine the cost of
      implementing the 42 approved projects in FY 2004.

   • FAA’s redesign projects are often delayed 3 years or more because of
     changes in a project’s scope, environmental issues, and problems in
     developing new procedures for more precise arrival and departure routes.
     For example, of the 42 approved projects in FY 2004, 7 were affected by
     environmental concerns, 10 by problems in developing new procedures,
     and 21 by changes in a project’s scope.

   • Projects are not effectively coordinated among agency organizations that
     manage resources (e.g., new equipment and radio frequencies) or linked to
     the agency’s budget process.          This directly affects a project’s
     implementation. We found that 19 of the 42 approved projects in FY 2004
     had unresolved equipment issues.

We recommended that FAA (1) establish cost and schedule controls for airspace
redesign projects (and include costs for both planning and implementation),
(2) establish procedures to ensure projects are coordinated among agency offices,
(3) prioritize airspace projects and establish criteria for assessing a project’s
systemwide impact, and (4) re-evaluate how resources are used at the local and
regional levels. FAA has actions underway to address our recommendations.

FAA’s Joint Planning and Development Office—Determining What
Can Be Done in 5- and 10- year Benchmarks and Establishing
Funding Requirements
Another important effort to help meet the anticipated demand for air travel is
FAA’s Joint Planning and Development Office (JPDO). The establishment of this
new office was mandated by Congress to coordinate research and development
efforts among diverse Federal agencies, including the National Aeronautics and
Space Administration and the Department of Defense, and develop a vision for the
next generation air traffic management system in the 2025 timeframe.
There are a number of reasons why this effort is important, including the
forecasted demand in air travel as well as the factors (i.e., microjets) that may
drive increased operations. The new office is also important because the majority
of projects in FAA’s current capital account ($2.4 billion for fiscal year 2006)
focus on keeping things running, or “infrastructure sustainment.” The combined
effects of increased operations costs and the fact that modernization projects have
suffered so much cost growth over the years has left little room for new




                                                                                21
initiatives.8 This one of the reasons why there is so much discussion about how to
finance new air traffic management initiatives.
FAA reports that the current air traffic control system (or “business as usual”) will
not be sufficient to accommodate the anticipated future growth in traffic or the
changes facing the aviation community. Key issues focus on what new systems
are needed and how new systems, capabilities, procedures, and changes in airspace
management can transform the way air traffic services are provided. The JPDO
published its first plan this past December. It laid out goals and strategies but did
not provide details on what capabilities will be pursued or how much they would
cost to implement.
While the 2025 timeframe has merit, benchmarks for what can be done in 5- and
10-year intervals are also important. Other imperatives focus on determining what
level of funding is actually required, how much other agencies will contribute,
what specific capabilities will be pursued, and when they can be implemented.
The Department committed to Congress that by the year’s end, it would provide
specifics on how much money is needed, when, and for what purposes.
Administrative and/or Market-Based Solutions May Provide
Congestion Relief in Markets Where Alternatives are Limited

As delays return, FAA and some airports are considering a variety of
administrative and/or market-based solutions that would allow variable pricing of
access in order to control congestion and delays. Some of the congestion
management alternatives under study include slot auctions, congestion pricing,
administratively imposed scheduling caps, and incentives for up-gauging aircraft.

In 2004 and 2005, the FAA used administrative actions to reduce delays at
Chicago-O’Hare by first negotiating and later imposing schedule reductions with
the carriers serving O’Hare. The FAA is now soliciting comments on whether to
continue the administrative controls at O’Hare for another 3 years, until
ultimately, the first phase of the O’Hare Modernization Plan is complete and
additional capacity could relieve some of the congestion. At LaGuardia, another
airport where scheduled operations are anticipated to exceed capacity when slot
controls expire in 2007, new construction is not a viable option. At LaGuardia,
some demand management tool—whether market based or administrative, will
likely be needed to prevent what could be crippling delay conditions.


8
    We reviewed 16 of FAA’s major acquisitions. We found that 11 of the 16 experienced cost growth of
    about $5.6 billion, which is more than double the amount of FAA’s Fiscal Year 2006 budget request for
    its Facilities and Equipment account. Additionally, 10 of these 16 projects accounted for schedule delays
    ranging from 2 to 12 years and 2 projects have been deferred until at least 2008. For additional details on
    FAA’s major acquisitions as well perspectives on the JPDO, see our testimony entitled “Next Steps for
    the Air Traffic Organization” (CC-2005-022, April 14, 2005).


                                                                                                           22
Market-based approaches, while on paper appear to be a reasonable solution for
some airports, entail difficult policy considerations, such as who sets the fees, how
the fees should be set, who collects the fees, how (and whether) fees are shared
between airports and the FAA, how general aviation will be treated, and small
community access.         These are difficult questions that will need definitive
answers—the consequences of moving forward without working out the details
could result in severe market consequences. We believe this debate needs to be
joined with the debate taking shape on financing FAA—there should be some
degree of equity between who benefits from premium services (i.e., rush hour
departure slots), and who pays for these privileges.




                                                                                  23
